CERTIFICATE OF COMPLIANCE

No,

FATMATA KAMARA

Petitioner

v.

NEW JERSEY STATE POLICE

- Respondent

As required by Supreme Court Rule 33.1(h), I certify that the
Petition for writ of certiorari contains 457 words, excluding the
Parts of the petition that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and
Correct.
Executed on 17th day of July 2020.

1SATU BAH
NOTARY PUBLIC
STATE OF NEW JERSEY
ID # 2397387
MY COMMISSION
JUN. 15, 2025

Li

received
Fatmata Kamara — Pro Se

JUL 22 2020

